No. 19A
IN THE

Supreme Court of the United States
FORD MOTOR COMPANY,
Applicant,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MONTANA

Sean Marotta
Counsel of Record
Kirti Datla
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
sean.marotta@hoganlovells.com
July 24, 2019

Counsel for Applicant

RULE 29.6 STATEMENT
Ford Motor Company has no parent corporation, and no publicly held corporation owns 10% or more of its stock.

i

APPLICATION
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C. § 2101(c), applicant Ford Motor Company respectfully requests a 30-day extension of time, to
and including September 18, 2019, within which to file a petition for a writ of certiorari to review the decision of the Supreme Court of Montana in this case.
1.

The Supreme Court of Montana issued its decision on May 21, 2019.

See Ford Motor Co. v. Montana Eighth Judicial Dist. Ct., No. OP 19-0099 (Appendix
A). Unless extended, the time to file a petition for certiorari will expire on August
19, 2019. This application is being filed more than ten days before the petition is
currently due. See Sup. Ct. R. 13.5. The jurisdiction of this Court will be invoked
under 28 U.S.C. § 1257(a).
2.

The decision below deepens two distinct splits in the state and federal

courts regarding one aspect of this Court’s personal jurisdiction jurisprudence—the
requirement that a plaintiff’s claims must “arise out of or relate to” a defendant’s
forum contacts. First, there is a split in product-defect cases as to whether specific
jurisdiction is proper when the product was not designed, manufactured, or first
sold in the forum State. Second, there is a split on the general question of whether
the arise-out-of prong of specific jurisdiction requires that the defendant’s forum
contacts be a cause of the plaintiff’s claims.

1

3.

The plaintiff in the underlying litigation, Charles Lucero, is the per-

sonal representative of the estate of Markkaya Jean Gullett. Gullett was driving on
the interstate in Montana when a tire mounted on the Ford Explorer she was driving separated. The vehicle lost stability, rolled into a ditch, and came to rest upside
down. Gullett died at the scene. Plaintiff subsequently filed suit against Ford in
Montana state court, raising strict-liability design defect, failure to warn, and negligence claims. Ford moved to dismiss for lack of personal jurisdiction, contending
that there was no specific jurisdiction because the Explorer was not designed, assembled, or first sold in Montana. Rather, the vehicle was assembled in Kentucky,
transported to Oregon, and sold for the first time to a dealer in Washington State.
The vehicle was resold and registered in Montana over 10 years later. Ford’s Montana contacts therefore had no relationship to Lucero’s particular claims. The trial
court denied the motion and Ford sought an interlocutory appeal—known in Montana as a “writ of supervisory control”—to the Montana Supreme Court.
4.

The Montana Supreme Court accepted interlocutory review and af-

firmed the trial court’s order. On the arise-out-of prong, the Montana Supreme
Court held that due process does not require a direct connection between a plaintiff’s claims and a defendant’s forum contacts. Instead, it concluded based on this
Court’s decisions in World Wide Volkswagen v. Woodson, 444 U.S. 286 (1980) and
Goodyear Dunlop Tire Operations, S.A. v. Brown, 564 U.S. 915 (2011) that “when
the defendant purposefully avails itself of the privilege of conducting activities in a
specific forum by placing a product into the stream of commerce, the plaintiff’s

2

claims will relate to the defendant’s forum-related activities as long as the connection between the defendant's in-state conduct and the plaintiff’s claim is sufficient
enough not to offend due process.” App. 13a.
5.

The Montana Supreme Court stated that due process is ultimately

about fairness and that car companies can foresee vehicles crossing state lines. Rejecting Ford’s arguments, the court stated that “[w]here a company first designed,
manufactured, or sold a vehicle is immaterial to the personal jurisdiction inquiry,
and focusing on those limited factors would unduly restrict courts of this state from
exercising specific personal jurisdiction.” Id. at 14a. Instead, a plaintiff’s claims are
“related to” a defendant’s forum contacts for due-process purposes if “a nexus exists
between the product and the defendant's in-state activity and if the defendant could
have reasonably foreseen its product being used in Montana.” Id.
6.

Finally, the court distinguished Bristol-Myers Squibb v. Superior

Court, 137 S. Ct. 1773 (2017), and Walden v. Fiore, 571 U.S. 277 (2014). It believed
Bristol-Myers was distinguishable because specific jurisdiction over the claims of
the plaintiffs who suffered injury in the forum in that case were undisputed. And it
believed that Walden was inapposite because Ford’s general business activities in
Montana mean that Plaintiff’s ties to Montana were not the only connection between the forum and the litigation.
7.

This case deepens a longstanding split in product-liability cases as to

the propriety of specific jurisdiction when the defendant does not originally design,
manufacture, or sell the product in the forum State. There is also a broader disa-

3

greement as to the proper test for whether a plaintiff’s claim “arises out of or relates
to” a defendant’s forum contacts.

These splits have continued even after this

Court’s recent decisions in Walden and Bristol-Myers. This Court’s review is accordingly needed to set a uniform, national standard and to provide clarity and further
guidance to the lower courts.
8.

Ford has retained Sean Marotta of Hogan Lovells US LLP as counsel

to file a petition for writ of certiorari. In the time since the Montana Supreme
Court’s decision, counsel has been engaged in extensive trial and post-trial proceedings for Ford in an unrelated matter, Creutzberger v. Ford Motor Co., No. MID-L836-10 AS (N.J. Super. Ct.), and took a long-standing, pre-planned family vacation.
Over the next several weeks, counsel is also occupied with briefing deadlines for a
variety of matters, including opposing a motion for leave to appeal to the New York
Court of Appeals in Aybar v. Aybar, Index No. 706909/15 (N.Y.). And those at Ford
responsible for reviewing counsel’s papers have longstanding summer vacations
planned between now and the original August due date for the petition. Ford requests this extension of time to permit counsel to research the relevant legal and
factual issues and to prepare a petition that fully addresses the important questions
raised by the proceedings below.

4

9.

For these reasons, Ford respectfully requests that an order be entered

extending the time to file a petition for certiorari to and including September 18,
2019.

Res ectfully submitted,

Sean Marotta
Counsel of Record
Kirti Datla
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
sean.marotta@hoganlovells.com
July 24, 2019

Counsel for Applicant

5

